(A
A
A
. r

No.

li - y & y;

Supreme Court,’ U.S.
FIL'iH

OCT 2

Ct,

OFRCFOFTHFC!- -

IN THE
SUPREME COURT OF THE UNITED STATES

ANTHONY THOMAS - PETITIONER
vs .
VICTOR CALLOWAY - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI

ANTHONY THOMAS
DANVILLE CORRECTIONAL CENTER
5820 E. MAIN ST.
DANVILLE, ILLINOIS

61834

i

•

QUESTIONS PRESENTED

1.

Should a certificate of appealability have issued where the
District Court incorrectly opined that claims raised by
Mr. Thomas were matters of state law, overlooking that the
preserved issues were argued and well-grounded under federal
constitutional law?

2.

Should a certificate of appealability have issued where the
District Court incorrectly opined Mr. Thomas' perjury claim
was procedurally defaulted, ignoring that state post-conviction
appellate counsel inappropriately withdrew on state appeal,
thereby stifling Mr. Thomas' continued attempts to have his
claim considered in one complete round of state appellate
review?

3.

Are the integrity of the habeas proceedings compromised
requiring remand back to the District Court where the court
ruled on Mr. Thomas' petition without allowing him to respond
to the State's answer, where Mr. Thomas never refused or failed
to respond, but rather asked for help in responding, citing the
difficulty in understanding the complex procedural doctrines
made by attorneys who had significant advantage over him?

i

LIST OF PARTIES
All parties appear in the caption of the case on the cover page.

ii

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
Pennsylvania v. Finley, 481 U.S. 551 (1987)....................

. . . .4, 12

Slack v. McDaniels, 529 U.S. 473 (2000)............................

7, 11, 13, 16

Michelson v. United States, 335 U.S. 469 (1948)............

9

Whatley v. Zatecky, 833 F.3d 762 (7th Cir. 2016)..........

8

Perruquet v. Briley, 390 F.3d 505 (7th Cir. 2004)........

8

Lieberman v. Washington, 128 F.3d 1085 (7th Cir. 1997)

10

Butler v. Richards, 947 F.2d 948 (7bh Cir. 1991)..........

11

People v. Roberts, 100 Ill. App. 3d 469 (ill.App. 1st Dist. 1981). .9
79 Ill.2d 129 (Ill. 1980)

,9

People v. Martin, 47 Ill.2d 331 (1970).......... .

9

People v. Moriarty, 25 Ill.2d 565 (ill. 1962)

9

People v. Lindgren

STATUTES AND RULES
28 U.S.C. § 2253(c)(2)

2,7

28 U.S.C. § 2254..........

2

U.S. Const. Amend. V

9

U.S. Const. Amend. VI

9

U.S. Const. Amend XIV

9

Illinois Const. Art. I § 2

9

Illinois Const. Art. I § 8

9

Illinois Const. Art. I § 13

9

iii

OTHER
1 Wigmore, Evidence, 3d Ed., § 194

iv

§

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

2

REASONS FOR GRANTING THE WRIT

7
16

CONCLUSION

INDEX TO APPENDICIES
APPENDIX A

Order of the United States Court of Appeals for the
Seventh Circuit dated August 19, 2020

APPENDIX B

Memorandum Opinion and Order of the United States
District Court for the Northern District of Illinois
dated November 12, 2019

APPENDIX C

Respondent's Answer to Petition for Writ of Habeas
Corpus
Excbhpt Pages 13-30 of Petitioner's State Direct
Appeal Brief

APPENDIX D

v

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below:
OPINIONS BELOW
The opinion of the United States court of appeals
appears as Appendix A to this petition and is unpublished.
The opinion of the United States district bourt appears
at Appendix B to this petition and is unpublished.

JURISDICTION
The date on which the United States Court of Appeals
decided my case was August 19, 2020.
No'.petition for rehearing was filed in my case.
The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
U.S. Const. Amend. V^
U.S. Const. Amend. VI
U.S. Const. Amend. XIV
28 U.S.C. § 2254
28 U.S.C. § 2253(c)(2)
Illinois Const. Art. I § 2
Illinois Const. Art. I § 8
Illinois Const! Art. I § 13
STATEMENT OF THE CASE
Immediate History
This matter arises fromnthe denial of a certificate of appeala­
bility by the United States Circuit Court for the 7th Circuit and
28 U.S.C. § 2253(c)(2).
In March of 2019, Mr. Thomas sought habeas relief under 28 U.S.C.
§ 2254 challenging his Illinois state court conviction for the
offense of aggravated criminal sexual assault. (IL Cook County Cir.
No. 10-CR-0541001)(Ddc. 1) Mr. Thomas asserted in his petition, in
relevant part, that his constitutional rights were violated (l)
through the admission of other-crimes evidence for propensity
1

Dbe to C0VID-19 restrictions at the Danville Correctional Center
where Petitioner is confined, he was unable to access the
institutional law library in order to retreive and be able to
recite verbatim the text of the Constitutional and Statutory Provisions
Involved.

2

purposes (Doc. 1 at 15); (2) the total consrcutive sentence was in
excess and acted as a penalty for rejecting a plea offer for exer­
cising his right to a trial; and (3) the prosecutor knowingly used
false and inconsistent testimony from the victim.
The District Court then directed respondent to answer
Mr. Thomas' petition. (Doc. 5) Respondent didlso, asserting that the
grounds raised were either not cognizable or procedurally defaulted.
(Doc. 7, attached as Appendix C)
Then, Mr. Thomas motioned the court for attorney representation
citing what he described as the "complicated response" from
Respondent. (Doc. 13)
In response, the District Court entered an order denying the
appointment of counsel, denying the petition itself without any
input from Mr. Thomas, and denied a certificate of appealability.
(Doc. 14, attached as Appendix B)
Facts Relevant to the Issues^Raised Herein
While serving a 15-year sentence to a charge of aggravated
sexual assault, in 2010, Mr. Thomas was charged with a separate
offense of aggravated criminal sexual assault. Following trial by
jury, the Illinois Circuit Court sentenced Mr. Thomas to a term of
15 years imprisonment, ordered to be served consecutive to the prior
15-year term then underway. See People v. Thomas, 2014 IL App (1st
130017-U)

3

Mr. Thomas took a direct appeal where he argued, inter alia,
that the admission of "other crime evidence" for propensity pur­
poses, and, imposition of a consecutive sentence greater than that
offered in plea proceedings as a penalty for going to trial, both
violated due process. (Excerpt pages of Mr. Thomas' Appellant's
Brief included as Appendix D)

The appellate court affirmed Mr.

Thomas' conviction on these issues, and the Illinois Supreme Court
denied leave to appeal challenging the Appellate Court's judgment
on the issues. People v. Thomas, No. 118362 (ill. Jan 28, 2015)
In 2015, Mr. Thomas filed a post-conviction petition alleging,
inter alia, that the State suborned perjury at trial; that trial
counsel was ineffective for failing to preserve his perjury claim;
and, that appellate counsel was ineffective for failing to raise
the issue on direct appeal. People v. Thomas, No. 10-CR-5410, at
C. 39-58.
The circuit court dismissed the petition as frivolous and pat­
ently without merit, (id. atlC.110-119) Mr. Thomas appealed the
decision, however appointed counsel moved to withdraw pursuant to
Pennsylvania v. Finley, 481 U.S. 551 (1987). People v. Thomas, 116-1221.

The appellate court then granted the Finley motion thereby

affirming the circuit court's judgment. (Nov. 2, 2018)
Then, Mr. Thomas proceeded to the Illinois Supreme 'Court
arguing that his appellate counsel was ineffective for moving to
withdraw under Finley. In January 2019, the court denied leave to

4

appeal. People v. Thomas, No. 124263 (Jan. 31, 2019)
Leaving the Illinois court system, Mr. Thomas instituted federal
habeas proceedings in March of 2019 asserting nine (9) total grounds
for relief, of which were that his constitutional rights were vio­
lated by the Illinois trial court (1) through the admission of
other crimes for propensity purposes (Doc. 1 at 5); (2) the imposi­
tion of a consecutive sentence greater than that offered in plea
2
proceedings as a penalty for going to trial (W_. at 6-7) ; and (3)
that the prosecutor knowingly used false and inconsistent testimony
from the alleged victim. (id.. at 25)
The District Court then directed Respondent to answer the
petition. (Doc. 5)
On June 14, 2019, Respondent filed an Answer to Mr. Thomas'
petition. Respondent claimed, in pertinent part, that Mr. Thomas's
claim that the admission of the other-crimes evidence and sentence
issues amounted to state-law challenges and were procedurally
defaulted nonetheless. (Doc. 7 at p. 6, Appendix C) With respect to
the perjury, though Respondent acknowledged post-conviction
appellate counsel moved to withdraw on appeal, causing Mr. Thomas to
argue his post-conviction appellate counsel's incompetency in a PLA

2

The District Court merely framed this issue as "consecutive
sentences violated state law" (Doc. 14, p. 3, App. B), but this
is a reframing, which significantly narrowed the scope and
federal constitutional value of the claim Mr. Thomas made:in
his direct appeal brief. (Appendix D)

5

in the Illinois Supreme Court, Mr. Thomas failed to exhaust his
state remedies, (id^. at p. 7)
Then, although Mr. Thomas was allowed to file a response, he
first moved for the appointment of counsel citing difficulty with
Respondent's "complicated response." (Doc. 13)
On November 12, 2019, the District Court entered an order
noting that in lieu of a response, Mr. Thomas instead moved for the
appointment of counsel. (Doc. 14, fn. 1, Appendix B) The Court then
denied Mr. Thomas' request citing that the appointment of counsel
would not change the outcome of his petition. (Td. at p. 1, fn. 1)
Then, without anyconsideration to sua sponte order an extension of
time to understand and file an appropriate response, the court
denied the petition, then declined to issue a certificate of
appealability, (jtd. at pgs. 1, 7-8)
On August 19, 2020, the 7th Circuit Court of Appeals denied a
renewed request for a certificatetof appealability where he raised
the three questions now presented to this Court. (Appendix A)

6

REASONS FOR GRANTING THE PETITION
I.

A certificate of appealability should have issued where the a
District Court incorrectly opined that claims raised by
Mr. Thomas were only matters of state law, overlooking that
the preserved issues were argued and premised under federal
constitutional law.
To obtain a certificate of appealability, a habeas petitioner must make a

"substantial showing of the denial of a constitutional right." 28 U.S.C.
§ 2253(c)(2). This demonstration "includes showing that reasonable jurists could
debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to
deserve encouragement to proceed further." Slack v. McDaniel, 529 U.S. 473,
483-84 (2000).
Initially, it should be noted that the District Court found the issues
regarding the trial court's admission of other crimes evidence, and, imposition
of a consecutive sentence greater than previously offered as a penalty for going
to trial, were exhausted through complete rounds of state review. (Doc. 14,at.
p. 4, Appendix B) Mr. Thomas asserts, however, that the District Court erred in
finding the issues were merely matters of state law in concluding they were not
3
cognizable in federal habeas proceedings. (Id.)
As this Supreme Court welL knows, the remedial power of a federal habeas

3 To avoid redundancy, the substantial basis of these claims
were argued in the state direct appeal brief, excerpts of
which are included as Appendix D to this petition.

7

court is limited to violations of the petitioner's federal rights "so only if a
state court's errors have deprived the petitioner of a right under federal law
can the federal court intervene." Perruquet v. Briley, 390 F.3d 505, 511 (7th
Cir. 2004). A petitioner must draw enough connection between his rights to due
process and the trial court's alleged state law errors for the claim to be
cognizable on habeas review. Perruquet, 390 F.3d at 512.

To make this deter-

mination, the Court must consider whether the state court was "sufficiently
alerted" to the federal constitutional nature of the issue to permit it to
resolve that issue on a federal basis. Whatley v. Zatecky, 833 F.3d 762, 771
(7th Cir. 2016). The Seventh Circuit in Whatley set forth various factors to
consider in whether the state court was "sufficiently alerted," amongst which
are "whether the petitioner relied on state cases which apply a constitutional
analysis to similar facts" or "whether the petitioner framed the claim in terms
so particular as to call to mind a specific constitutiohallright." Id. at 771.
The Court must consider the specific circumstances of each case. Id.
In the District Court's opinion, it claimed that Mr. Thomas has not met this
standard, stating:
"Both grounds one and two are expressly based on violations of state
law. Thomas never argued in state court that these violations of state
rise to the level of federal due process violations. [ ] Thomas did
not in any way cite or implicate a specific constitutional right in
his state court briefing. Nor did he cite federal or state cases apply­
ing a constitutional analysis in his state court briefing. Indeed,
his state court papers did not even touch on broader principles of
constitutional due process." (Doc. 14 at 61,'Appendix B)
Respectfully, the District Court is flat-out wrong. Specifically, in his
direct appeal brief, with respect to his argument that the trial court erred in
allowing the State to admit other-crimes evidence for propensity purposes,

8

Mr. Thomas specifically set forth the constitutional basis of his claim in the
"Standard of Review" section:
"The improper admission of other crimes evidence violates a
defendant's right to due process and a fair trial by an unbiased
jury. U.S. Const, amends. V, VT,1 XIV; Ill. Const. Art. I §§ 2, 8,
13; People v. Roberts, 100 Ill.App.3d 469, 474-76 (1st Dist.
1981j; People v. Lindgren, 79 Ill.2d 129, 141-44 (1980)." (Direct
Appeal Brief, excerpt p. 14, Appendix D)
Here, Mr. Thomas specifically couched his claim by citing the federal due
process clause, then cited two State cases that applied a constitutional analysis
to similar facts.

But then he went further by examining the early history of

common law, stating:
"Early in history of the common law, a rule of evidence developed
prohibiting the introduction of other-crimes evidence in criminal
cases; such evidence was barred "not because it had no appreciable
probative value, but because it had too much." 1 Wigmore, Evidence,
3d Ed., § 194; See also Michelson v. United States, 335 U.S. 469,
475-76 (1948)" (Direct Appeal Brief, excerpt p. 15, Appendix D)
Here, Mr. Thomas framed the claim in terms so particular as to call to mind a
specific constitutional right.

This is even more so since he began with earlier

U.S. Supreme Court precedent on the issue.
With respect to his argument that the trial court improperly sentenced him
to a consecutive term in excess of what he was offered on a plea as a penalty
for his choice to go to trial, Mr. Thomas was also clear in his brief, stating:
"The Fourteenth Amendment provides, in pertinent part, "[N]o State
shall...deprive any person of life, liberty, or property, without due
process of law." U.S. Const. Amend. XIV. See also Ill. Const. Art. I,
§ 2. It is long held that a sentence imposed on a defendant as
punishment because he exercised the right to a trial by jury is a
constitutional deprivation. See People v. Martin, 47 Ill. 2d 331, 340
(1970) [ ]; see also People v. Moriarty, 25 Ill.2d 565, 567 (1962)
(same)." (Direbt Appeal Brief, excerpt p. 27, Appendix D)
Again, Mr. Thomas not only cited the federal due process clause, he also cited

9

two State cases that applied constitutional analysis to similar facts.
These references are not made merely in passing, or made;in the slight as a
means to subvert federal habeas review, but rather were apparent, complete, and
articulate in their constitutional basis, and the District Court erred in
finding otherwise.
Mr. Thomas also emphasizes to this Supreme Court that the District Court
framed this issue as but a mere "consecutive sentence" issue (Doc. 14 at 3,
Appendix B), which, if true, would indeed have been a state law issue. But the
District Court re-framed the claim made (and confirmed exhausted) by significant­
ly narrowing the scope and federal constitutional value of the claim Mr. Thomas
made in his direct appeal brief.

It was not a mere "consecutive sentence"

issue. What elevated the matter to a federal constitutional issue was that the
state court offered no reason for its length, which led one to think it was a
penalty for going to trial. In more explicit and express words, the state court
retaliated against Mr. Thomas for asserting his innocence to a jury. The govern­
ment retaliating against any individual for exercising a constitutional right is
a cornerstone issue of constitutional law.
This reframing and narrowing of the-scope of the issue is especially
important, in that, the District Court continued in arguendo, stating that even
if Mr. Thomas

alerted the state court to the constitutional nature of the two

claims, they would fail on the merits nonetheless. (Doc. 14 at p. 6, Appendix B)
Specifically, the Court stated:
"The Court is not aware of any constitutional right that a
sentence imposed after trial be no longer than the sentence in exchange
for a guilty plea. Neither does admission of "other crimes" evidence
implicate the constitution. See Lieberman v. Washington, 128 F.3d 1085,

10

1095 (7th Cir. 1997) [ ]; Butler v. Richards, 947 F.2d 948 (7th
Cir. 1991)" (Doc. 14 at p. 7, Appendix B)
The District Court is wrong for two reasons. First, and again, the Court
failed to note the entire scope of the inappropriate sentence claim which
specified it was a "penalty" for rejecting a lighter sentence and instead going
to trial. (Direct Appeal Brief, excerpt pgs. 26, 30, Appendix D)

Second, both

claims astutely cited constitutional cases rebutting the caselaw premises relied
on by the District Court.

Because Mr. Thomas correctly'relied on cases in his

Appellate Brief showing merit to his position, the District Court erred in
claiming otherwise.
In sum, a reasonable jurist could debate whether the District Court erred
in finding his claims lacked an adequate constitutional basis and lacked actual
merit.

Mr. Thomas' Direct Appeal Brief belies the District Court's findings, and

as such, the issues presented were adequate to deserve encouragement to proceed
further. Slack, 529 U.S. at 483-84.

II. A certificate of appealability should have issued where the
District Court incorrectly opined Mr. Thomas' perjury claim was
procedurally defaulted, where it ignored that state post­
conviction appellate counsel inappropriately withdrew on the
state appeal, thereby stifling Mr. Thomas' continued attempts
to have his claim considered on one complete round of state
appellate review.
IMr. Thomas asserted as Ground 8 in the habeas petition that the prosecutor
knowingly used false and inconsistent testimony from the victim at trial. (Doc. 1
at 25, Doc. 14 at p. 3, Appendix B; Doc. 7 at p. 5, Appendix C)

11

Both Respondent

and the District Court opined that the claims were procedurally defaulted (Doc. 7
at p. 7, Appendix C;-Doc. 14 at p. 4, Appendix B), but the factual basis in what
the record supports conflicts with each other, and, ignores crucial facts beyond
Mr. Thomas' control.
More specifically, the District Court concluded that the perjury claim was
"never raised in the state court, and are denied for that reason." (Doc. 14 at
p. 4, Appendix B)

In other words, the District Court infers that Mr. Thomas

made.no attempt to raise the claim at any state court level.
Conversely, Respondent noted, correctly, that Mr. Thomas raised his suborn­
ation of perjury claim in his state post-conviction petition. (Doc. 7 at p.3,
Appendix C) The State continued to note the state court record showed: l) the
circuit court dismissed the petition as frivolous and patently without merit;
2) That on appeal Mr. Thomas' appointed counsel moved to withdraw pursuant to
Pennsylvania v. Finley, 481 U.S. 551 (1987); 3) The Appellate Court granted
counsel's Finley motion and affirmed the circuit court's judgment; and 4)
Mr. Thomas'proceeded to the Illinois Supreme Court alleging the incompetency of
his post-conviction appellate counsel in withdrawing from the appeal under
Finley. (Doc. 7 at p.4, Appendix C)

In other words, the State infers that

Mr. Thomas in fact made an attempt to raise his claim in state court, but argued
that he did not present it "in one complete round of the State's established
appellate review process" because it was never presented to the state supreme
court. (Doc. 7 at p.7, Appendix C)
These discreptancies between the district court findings, and Respondent's
Answer are of import to whether or not a fair review (or fair conclusion for that
matter) that a procedural default actually occured. This is particularly so

12

because the District Court opted to deny Mr. Thomas' request for the appointment
of counsel, instead relying on Respondent's arguments regarding procedural
exhaustion and fair presentment doctrines. (Doc. 14 at p. 1, fn. 1, Appendix B)
The conflict in the District Court's reasoning should lead a jurist of reason to
conclude that the subornation of perjury issue "deserves encouragement to proceed
further." Slack, 529 U.S. 483-84.
What could be gained by proceeding further? Particularly, the habeas record
is devoid of any consideration of the substance of the perjury claim presented in
the State court, or what premise post-conviction appellate counsel offered to the
state appellate court to justify withdrawel on the appeal.

However, one thing is

clear: Mr. Thomas did not stop fighting to resolve the claim because he went to
the Illinois Supreme Court to argue the threshold claim of the inappropriate
withdrawal of counsel by the state appellate court. The state supreme court -1^
elected to deny leave to appeal as acknowledged by Respondent (supra), leading to
the instant habeas proceeding. The record should be developed to determine the
reliability of the state court proceeding.
In sum, a reasonable jurist could debate whether the District Court erred
in finding Mr. Thomas' subornation of perjury claim was procedurally defaulted
where the court conflicted with Respondent on its reasoning and interpretation
of the record.

As a result, the record was never adequately developed to consi­

der the correctness of the State appellate process, and, for that matter, the
ultimate merit of the perjury claim itself.

On this, the perjury issue presented

was adequate to deserve encouragement on whether procedural default in fact
occured, and if not, the ultimate merit of the claim. Slack, 529 U.S. at 483-84.

13

III.

The integrity of the habeas proceedings are compromised
requiring remand back to the District Court where the
court ruled on Mr. Thomas' petition without allowing him
to respond to the State's answer, where Mr. Thomas never
refused or failed to respond, but rather asked for help in
responding, citing the difficulty in understanding the i' .
complex procedural doctrines made by attorneys who had a
significant advantage over him.
Mr. Thomas asserts that the District Court erred in not appointing counsel

to assist him in responding to the Warden's Answer, arid without the benefit of
a response, the Court denied the petition. The denial had the effect of penal­
izing Mr. Thomas for asking for help prior to filing a response, which prejudiced
him in the outcome of- the habeas proceedings.
Respondent filed his Answer in June of 2019. (Doc. 7, Appendix C) Therein,
the Respondent acknowledged the differing claims that Mr. Thomas made, but set
forth defenses of (1) State law violation not qualifying for habeas relief: (2)
Procedural default; and, (3) Failure to exhaust state remedies, (id..afpgs. 6-8)
To any lawyer, judge, or mere legal technician, these doctrines are substantially
complex to comprehend.

Mr. Thomas recognized his own difficulty in comprehension,

and, realizing that the Warden had a tactical advantage, he asked the court for
help specifying the need due to the "complicated response" from Respondent. (Doc.
13)

In denying the request for counsel, the District Court noted "[rjather than

file a response to the Warden's answer, Thomas filed a motion for attorney
representation due to what he described as the "Complicated Response" from the
Warden." (Doc. 14 at p. 1, fn. 1, Appendix B) This is to suggest that Mr. Thomas
did not do what the District Court expected of him, namely, to file a response

14

instead of anything else.

But the very reason a response was not first filed was

because Mr. Thomas needed to first alert the District Court to its complicated
nature, thus impairing his ability to respond appropriately. The matter was
circular in nature. But, instead of simply denying the request, and on its own
motion continuing the case to alot Mr. Thomas suitable time to research, under­
stand, and produce':a pro-se response, the District Court decided to forego any
consideration of what he would respond to, in lieu of trusting the Respondent's
Answer and the record alone.

This had the effect of usurping the integrity of

civil proceedings where a party ordinarily has the right to respond to pleadings
and defenses of an opposing party.
To be clear, this is not a situation where Mr. Thomas notified the court f
that he was refusing to file a response, and nothing in the record would support
this scenario.

Rather, Mr. Thomas, as an untrained litigant, took responsible

action by first asking for help. To deny the request, whether correct or not,
then to simply deny habeas relief, was effectively a penalty for asking for such
help.
Mr. Thomas was certainly prejudiced without the benefit of the court consi­
dering any kind of response. In the court's order denying relief, it asserted
that the "Warden made arguments regarding procedural exhaustion and fair presenmeht which are well-settled doctrines" and the appointment of counsel "would not
change the outcome of the petition." (Doc. 14 at p. 1, fn. 1, Appendix B) In other
words, the District Court is saying that any response by Mr. Thomas would not
change the outcome of the petition.

If this is sensible, how can it be accounted

for the differing conflicts between Respondent and the Court in terms of what

15

claims are exhausted, procedurally defaulted, fairly presented, or what the
record shows, as demonstrated in the prior subsections £ supra?
In sum, by not appointing counsel, or otherwise ordering a continuance so
Mr. Thomas can submit a pro-se response, in lieu of denying the petition, the
district court effectively penalized Mr. Thomas for asking for help. The decision
to deny relief without the benefit of a response by Mr. Thomas should cause a
reasonable jurist to debate whether the petition should have been resolved in a
different manner. Slack, 529 U.S. at 483-84.

CONCLUSION
Accordingly, the petition for writ of certiorari should be granted.

Respectfully submitted,

Anthony Thomas

(VtbKfcg- IQ, IDZO
Dated

16

